GR-90-98-020
U.S. DEPARTMENT OF JUSTICE
 
Audit Report

 
OFFICE OF JUSTICE PROGRAMS, BUREAU OF JUSTICE ASSISTANCE
POLICE HIRING SUPPLEMENT GRANT TO THE EAST PALO ALTO POLICE DEPARTMENT
CALIFORNIA
GR-90-98-020
MAY 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, completed an audit of a grant
awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA), to the East Palo Alto Police Department (EPAPD), California. The
EPAPD received a grant of $898,233 to hire 7 additional police officers under the Police
Hiring Supplement (PHS) program. The purpose of the grant was to enhance community
policing efforts.
In brief, our audit determined that:



- The EPAPD accounting system did not support $109,840 of reimbursed costs, therefore,
      we question this amount.
- The EPAPD supplanted both their FY 1994 and FY 1995 operating budgets with PHS grant
      funds because their staffing level fell below their baseline sworn officer staffing number
      by five positions in FY 1994 and by four positions in FY 1995. The EPAPD charged the grant
      for the vacant positions and this resulted in unallowable costs of $384,957. Because the
      EPAPD supplanted their FYs 1994 and 1995 operating budgets with PHS funds, they did not
      enhance community policing activities.
- The EPAPD was reimbursed $9,299 for unallowable overtime cost.



 
#####